)

No.

IN THE
Supreme Court of the United States

JUNIOR GRIFFIN,
Petitioner,

-againstUNTTED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Title 18 United States Code Section 3006A(d)(6) and Rule 39 of this Court,
Petitioner Mohamed Sadeek Odeh asks leave to file the attached Petition for Writ of Certiorari to
the United States Court of Appeals for the Second Circuit without prepayment of fees or costs and
to proceed in forma pauperis.
Pursuant to Title 18 United States Code Section 3006A(d)(6), Petitioner was granted poor
person relief on appeal to the Second Circuit Court of Appeals and awarded printing costs.
Respectfully submitted
Dated: New York, New York
July 24, 2020

JAMES E. NEUMAN, P.C.
TOO Lafayettq^Street, Suite 501
New York, NY 10013
(212)966-5612

